CERTIFICATE OF SERVICE
No. TBD
Andrew Clarke
Petitioner(s)
v.
Russell McMurry
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
■ Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Andrew
Clarke Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Robert B. Shapiro
Georgia Attorney General's Office
40 Capitol Square
Atlanta, GA 30334
Counselfor Russell McMurry

Chan Sekhar
December 2, 2019

